National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                           July 23, 2014



North Carolina Space Grant
Attn: Mr. Christopher Brown,
   North Carolina Space Grant Director
North Carolina State University –
   Engineering Building III, Rm. 3002
911 Oval Drive
Raleigh, North Carolina 27606


SUBJECT: Audit of Grant Awarded to North Carolina State University
         (Report No. IG-14-027; Assignment No. A-14-005-00)


Dear Mr. Brown:


NASA awards approximately $846 million in grants and cooperative agreements
annually and faces the ongoing challenge of ensuring the Agency administers these
awards appropriately and recipients accomplish the stated goals and objectives. In
September 2011, the NASA Office of Inspector General (OIG) reported that NASA did
not have an adequate system of controls in place to ensure proper administration and
management of the Agency’s grant program, and as a result, some grant funds had not
been used for their intended purposes.1 Following publication of that report, we began a
series of audits examining specific NASA grants and cooperative agreements. In this
letter, we present the results of our audit of the National Space Grant College and
Fellowship Program (Space Grant) award to North Carolina State University (NC State).

Background
In response to the need for a coordinated effort to help maintain America’s preeminence
in aerospace science and technology, the NASA Authorization Act of 1988 established
Space Grant. The Program creates a national network of universities with interests and
capabilities in aeronautics, space, and related fields, and encourages cooperative
programs among universities, the aerospace industry, and Federal, state, and local
governments. Additionally, the Program fosters interdisciplinary training, research, and
informal education programs related to aerospace; promotes recruiting and training

1
    NASA OIG, “NASA’s Grant Administration and Management,” (IG-11-026, September 12, 2011).
professionals for careers in aerospace science, technology, engineering, and mathematics
with an emphasis on women, minorities and persons with disabilities; and endorses
strong science, mathematics, and technology education from elementary through
university levels.

To achieve these objectives, Space Grant provides funding to 52 consortia – one in each
state, the District of Columbia, and Puerto Rico – of colleges and universities,
associations, government agencies, industries, and informal education organizations
involved in aerospace activities. Each consortium funds fellowships and scholarships for
students pursuing careers in science, mathematics, engineering, and technology (STEM),
as well as curriculum enhancement and faculty development in those fields. Member
colleges and universities also administer pre-college and public service education projects
in their states. Lead institutions within each consortium provide additional support for
program objectives in their states and nationally by interacting with other universities to
broaden joint activities with NASA and aerospace-related industries. In addition, these
lead institutions are supposed to initiate activities to enhance their own research, training,
and education capabilities in aerospace-related fields or conduct activities to expand the
aerospace presence in their jurisdictions.

The North Carolina Space Grant Consortium (Consortium) consists of 13 member
institutions and 7 industry, government, and nonprofit partners. NC State is the lead
institution for the Consortium. Since its founding in 1991, the Consortium has managed
nearly $12 million in support to North Carolina citizens.

On January 29, 2010, NC State, as lead institution for the Consortium, applied for a five
year training grant under the Space Grant program and listed the following goals in its
proposal:

   1. Deliver a competitive fellowship and scholarship program that provides research
      and education opportunities to students in STEM disciplines at Consortium
      affiliate institutions.
   2. Strengthen North Carolina’s aerospace-related research infrastructure and
      capabilities.
   3. Provide groups of students with opportunities to engage in NASA-mission and
      STEM-based academic research and coursework.
   4. Deliver activities that facilitate the Space Grant’s focus on involving women,
      underrepresented groups, and persons with disabilities in all higher education
      program areas.
   5. Equip North Carolina pre-service and in-service educators with tools to inspire
      the future STEM workforce to pursue education and careers in aerospace-related
      fields.
   6. Increase interest in and understanding of NASA-mission and STEM activities by
      inspiring and engaging individuals of all ages throughout North Carolina.
   7. Expand the geographic diversity and awareness of the Consortium.

                                                                                            2
In April 2010, NASA awarded a 5-year, $2.87 million grant to NC State for the
Consortium. The grant period is April 2010 to April 2015, and NC State receives
$575,000 each year. Under the terms of the grant, NC State is required to match NASA’s
funds with cash equivalents of $2.12 million over the 5-year period.

The objective of our audit was to determine whether NC State used award funds for their
intended purpose and whether costs claimed were allowable and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the grant award. We
reviewed internal controls as they related to the management of the award. Specifically,
we reviewed the grantees (1) program performance and accomplishments, (2) accounting
and internal control environment, (3) budget management and control, and (4) reporting.
We also reviewed NASA’s administration of the grant.

To accomplish our audit, we conducted interviews with NASA grant and technical
officers. We also spoke with NC State and Consortium personnel responsible for the
administration and management of the grant and visited NC State offices in Raleigh,
North Carolina, to document accounting, procurement, and project management
processes and internal controls. In addition, we reviewed laws, regulations, and
documentation pertinent to our audit. Additional details of the audit scope and
methodology, our review of internal controls, and prior audit coverage can be found in
Appendix A.

Results
We found that NC State managed the grant in accordance with applicable laws,
regulations, guidelines, and the terms and conditions of the award. Specifically, we
found that the NC State had a strong system of accounting and internal controls,
adequately accounted for expenditures, properly managed its grant budget, and was on
track to meet the majority of Program goals.

NC State is Meeting Timelines for Achieving Program Goals. The grant agreement
requires NC State to submit annual reports to NASA summarizing progress toward
meeting the goals set forth in the Consortium’s proposal. Each progress report is
reviewed by a NASA subject matter expert, a technical officer, a grants specialist, and the
NASA Grant Officer.2 In addition, NASA personnel review the reports for trends and
contributions to Agency performance goals. NASA maintains the statistical data in the
Agency’s Office of Education Performance Management database.

We reviewed NC State’s annual progress reports for fiscal years 2010 through 2013, and
discussed them with the NASA Technical Officer. We found that NC State is meeting its
goals in accordance with established timelines.


2
    Per NASA Procedural Requirement 5800.1, “Grant and Cooperative Agreement Handbook,” Section A,
    June 13, 2008, a grant officer is a Federal employee with delegated responsibility for grant
    administration.



                                                                                                     3
Cost Sharing Requirements Met. The grant requires both NASA and NC State to
contribute funds to advance agreement goals. According to NC State’s proposal, it would
provide matching funds for direct labor, supplies and materials, other current services,
travel, and program funds. We found that NC State had matched funds in accordance
with the agreement. In addition, we selected a judgmental sample of 10 cost sharing
transactions and traced them through the University’s accounting system to supporting
documentation to ensure they were recorded in accordance with the agreement. We did
not identify any exceptions. We also determined that NC State used grant funds for their
intended purpose and did not identify any unallowable costs or claims. Finally, we noted
NASA properly administered the award of the grant and appropriately monitored grant
performance.

We appreciate the cooperation provided during this review. If you have questions or
require additional information, please contact Laurence Hawkins, Audit Operations and
Quality Assurance Director, Office of Audits, at 202-358-1543 or
laurence.b.hawkins@nasa.gov .

Sincerely,




Paul K. Martin
Inspector General



Enclosure



cc: Dr. Lennell Allen
    Director, Aerospace Research and Career Development Program

    Jim Stofan
    Deputy Associate Administrator for Education Integration

    Bill McNally
    Assistant Administrator for Procurement




                                                                                        4
                                                                       APPENDIX A




Scope and Methodology
We performed this audit from January 2014 through July 2014, in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Our overall objective was to determine whether NC State used awarded funds for their
intended purpose and whether costs claimed were allowable and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the award. We also
reviewed internal controls as they related to the management of the award.

Grant Selection. We judgmentally selected this grant based on the length of the
remaining performance period and the number of modifications.

Grant Award File Documentation. We reviewed grant award documentation, including
proposal, budget, technical review reports, and summary financial reporting
documentation. We worked with the NC State Compliance Specialist to obtain
documents and conduct detail testing of selected expenditure transactions. To validate
whether NASA grant funds were used for their intended purpose while also assessing the
sufficiency of grantee performance, we performed substantive transaction testing. We
obtained and reviewed relevant documents, including

   1. background information on the projects funded with NASA grant agreement
      funds;
   2. NASA’s process for managing NC State’s grant performance;
   3. official grant agreement budgets approved by NASA;
   4. detailed accounting records for expenditures charged to the grant agreement;
   5. quarterly financial status reports and drawdown requests; and,
   6. State of North Carolina Statewide Single Audits (A-133 reports) for fiscal years
      2010 through 2013.




                                                                                         5
Grantee Site Visits. In February 2014, we met in Raleigh, North Carolina, with staff
from N.C. State and the Consortium. We also interviewed NASA technical and
procurement personnel responsible for the grant. In addition, we interviewed the Space
Grant Principal Investigator concerning his role and to gain an understanding of the
Space Grant Program.

Testing Conducted. We tested compliance with what we considered the most important
conditions of the grant. The criteria we audited against included Federal requirements, the
Grant Handbook, and the terms and conditions of the grant. In conducting our audit, we
used a random number generator to select transactions for testing. This non-statistical
sampling design does not allow projection of the test results to the universe from which
the samples were selected. We selected 50 transactions through September 30, 2013,
with an absolute value of $30,049 for detailed review and evaluated whether they were
properly recorded and allowable under the laws and terms of the cooperative agreement.
Our review included tracing the transactions through N.C. State’s accounting records to
the supporting source documents.

We tested the following:

      Program performance and accomplishments to determine whether the grantee
       met grant objectives and collected data and developed performance measures to
       assess accomplishment of the intended objectives.
      Budget management and control to determine the amounts budgeted and the
       actual costs for each approved cost category, and to determine whether the
       grantee deviated from the approved budget and, if so, whether the grantee
       received the necessary approval.
      Accounting and internal controls to determine whether the grantee had
       sufficient accounting and internal controls to identify and report expenditures and
       reimbursements. This included testing
              grant drawdowns to determine whether they were adequately supported
               and whether the grantee was managing receipts in accordance with Federal
               requirements;
              grant expenditures to determine whether they were allowable under the
               terms and conditions of the grant award; properly authorized, classified,
               and supported; and allocable to the grant;
              grant reporting to determine whether required reports were submitted on
               time and accurately reflected grant activity; and,
              grant cost sharing funds to determine whether the grantee met cost sharing
               requirements.

We also determined, through limited testing, that the grantee did not generate or receive
program income or have any property or equipment reportable to NASA.




                                                                                            6
Federal Laws, Regulations, Policies, and Requirements. We identified and reviewed
relevant public laws, Office of Management and Budget (OMB) Circulars, NASA policy,
and applicable NC State policy and guidance. Specifically, we reviewed:

      Public Law 95-224, “Federal Grant and Cooperative Act of 1977,”
       February 3, 1978
      Public Law 100-147, “NASA Authorization Act of 1988, Title II-National Space
       Grant College and Fellowship Program,”
       October 30, 1987
      14 C.F.R. Part 1260, “Grants and Cooperative Agreements,” Subpart A,
       “General,” January 1, 2010
      14 C.F.R. Part 1260, Subpart B, “Uniform Administrative Requirements for
       Grants and Cooperative Agreements with Institutions of Higher Education,
       Hospitals, and Other Non-Profit Organizations,” January 1, 2010
      OMB Circular A-110, “Uniform Administrative Requirements for Grants and
       Agreements with Institutions of Higher Education, Hospitals, and Other
       Non-Profit Organizations,” January 10, 2010
      OMB Circular A-133, “Audits of Institutions of Higher Education and Other
       Non-Profit Institutions,” June 26, 2007
      OMB Circular A-21, “Cost Principles for Educational Institutions” (including the
       Cost Accounting Standards), May 10, 2004
      NASA Policy Directive 1200.1E, “NASA Internal Control,”
       July 21, 2008
      NASA Procedural Requirements (NPR) 9680.1, “NASA’s Financial Management
       of Grants and Cooperative Agreements,” November 10, 2011
      NPR 5800.1, “Grant and Cooperative Agreement Handbook,” Section A, June 13,
       2008, and Section B, April 20, 2007
      Grant Information Circular (GIC) 12-03, July 12, 2012
      North Carolina State University, “Human Resources,”
       http://www.ncsu.edu/human_resources/payroll/faculty_staff.php (June 18, 2014)
      North Carolina State University, “TEARS Responsibilities,”
       http://cng.ncsu.edu/policies/roles-responsibilities/tears/ (June 18, 2014)
      North Carolina State University, “REG 10.05.15 – TEARS (The Employee
       Activity Reporting System),” July 22, 2011,
       http://policies.ncsu.edu/regulation/reg-10-05-15 (July 18, 2014)




                                                                                       7
      North Carolina State University, “REG 10.05.01 – Budgeting,” April 5, 2013,
       http://policies.ncsu.edu/regulation/reg-10-05-01 (June 18, 2014)
      North Carolina State University, “REG. 10.05.02 – Cost Sharing,” July 22, 2011,
       http://policies.ncsu.edu/regulation/reg-10-05-02 (June 18, 2014)

Use of Computer-Processed Data. We used computer-processed data from the
Department of Health and Human Services Payment Management System to obtain grant
drawdown and expenditure data. Additionally, we used computer-processed data
extracted from NC State’s accounting system to determine the expenditure transactions
charged to the grant. Although we did not independently verify the reliability of all this
information, we compared it with other available supporting documents to determine data
consistency and reasonableness. From these efforts, we believe the information we
obtained was sufficiently reliable for our purposes.

Review of Internal Controls
We reviewed the internal controls for the grantee’s administration and management of
grants. We also interviewed officials responsible for directing NC State’s contracts and
grants program. We learned about established policies and processes pertaining to the
effectiveness and efficiency of operations, the payroll and timekeeping system, and the
monitoring of grant performance.

Prior Coverage
During the last 5 years, the NASA OIG and the Government Accountability Office
(GAO) have issued eight reports of particular relevance to the subject of this report.
Unrestricted reports can be accessed over the Internet at
http://oig.nasa.gov/audits/reports/FY14/index (NASA OIG) and http://www.gao.gov
(GAO).

NASA OIG

“Audit of NASA Grant Awarded to Hudson Alpha Institute for Biotechnology”
(IG-12-019, August 3, 2012)

“Audit of NASA Grants Awarded to the Philadelphia College Opportunity Resources for
Education” (IG-12-018, July 26, 2012)

“Audit of NASA Grants Awarded to the Alabama Space Science Exhibit Commission’s
U.S. Space and Rocket Center” (IG-12-016, June 22, 2012)

“NASA’s Use of Research Announcement Awards for Aeronautics Research”
(IG-12-011, April 30, 2012)

“NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)




                                                                                           8
GAO

“Federal Grants: Improvements Needed in Oversight and Accountability Processes”
(GAO-11-773T, June 23, 2011)

“Agencies Face Challenges in Tracking Contracts, Grants, Cooperative Agreements, and
Associated Personnel”(GAO-10-509T, March 23, 2010)

“Department of Education Could Improve Its Processes with Greater Focus on Assessing
Risks, Acquiring Financial Skills, and Sharing Information” (GAO-10-57,
November 19, 2009)




                                                                                   9
